  SIGAR                                            Special Inspector General for
                                                    Afghanistan Reconstruction




                                                          SIGAR 14-5 Inspection Report



    Archi District Police Headquarters: Extensive Mold, Lack of
    Running Water, and Inoperable Electrical Systems Show
    Facilities Are Not Being Sustained




                                                                          OCTOBER
                                                                          2013
SIGAR 14-5-IP/Archi District Police Headquarters
SIGAR
                                                      October 2013
                                                      Archi District Police Headquarters: Extensive Mold, Lack of Running Water,
                                                      and Inoperable Electrical Systems Show Facilities Are Not Being Sustained

                                                     SIGAR 14-5 Inspection Report

Special Inspector General for
                                                     WHAT SIGAR FOUND
Afghanistan Reconstruction
                                                     The force protection measures at Archi District Police Headquarters (ADPH)—such
WHAT SIGAR REVIEWED                                  as the perimeter walls and guard towers—built under the March 2008 contract
On March 4, 2008, the U.S. Army Corps of             between the U.S. Army Corps of Engineers (USACE) Afghanistan Engineer District-
Engineers, (USACE) Afghanistan Engineer              North and Swiz Hewadwal Joint Venture appeared well constructed. However, SIGAR
District-North (USACE-TAN) awarded a $4.2            was unable to determine whether they had been built in accordance with contract
million firm fixed-price contract to                 requirements and applicable construction standards, because USACE officials could
Swiz Hewadwal Joint Venture to construct             not locate the project’s essential construction files, including documents such as
nine district police headquarters for the            the contract’s technical specifications and requirements. In addition, USACE and the
Afghan National Police (ANP), including
                                                     Combined Security Transition Command-Afghanistan (CSTC-A) had conflicting
$708,331 for the Archi District Police
                                                     information about the project’s cost.
Headquarters (ADPH) project. On March 12,
2009, USACE-TAN modified the contract to             Additional buildings had been constructed on the site, including barracks,
limit the Archi project to construction of force     bathrooms, and water and septic systems. However, neither USACE nor Afghan
protection measures—perimeter walls, guard           officials knew who built these additional buildings, when they were built, or how
towers, main and secondary entry control             much they cost. SIGAR found during its November 2012 inspection that these
points, a guard shack, and a guard house—
                                                     additional facilities were in a state of disrepair, with an estimated 40 Afghan
which reduced the Archi project amount from
                                                     National Police personnel living and working in facilities with extensive mold—which
$708,331 to $289,185. For this inspection,
                                                     can cause serious health problems—growing on the interior walls and ceilings of the
we assessed whether (1) construction had
been completed in accordance with contract           barracks and bathrooms. In addition, the bathrooms were virtually unusable
requirements and applicable construction             because of missing sink faucets, showers in disrepair, and no running water. Also,
standards, and (2) the facilities were being         the facility only had 3 hours of electricity per day, which was provided by a small
used as intended and maintained.                     back-up generator.

WHAT SIGAR RECOMMENDS                                CSTC-A provided funds for a USACE contract for operation and maintenance (O&M)
SIGAR is recommending that the Deputy                of the ADPH, including these additional buildings, from October 2011 to May 2012.
Commanding Generals of the NATO Training             In addition, the entire ADPH facility has been eligible since December 2012 for O&M
Mission-Afghanistan and the Combined                 from the Afghan Ministry of Interior, which receives funding directly from the U.S.
Security Transition Command-Afghanistan              government for O&M of ANP facilities throughout Afghanistan. However, an Afghan
(CSTC-A), in coordination with the Afghan            police official at the facility told SIGAR in August 2013 that repeated requests for
Minister of Interior, determine why U.S. funds       maintenance had been ignored. Moreover, the problems found during SIGAR’s
provided directly to the Ministry of Interior for    November 2012 site inspection had worsened. For example, the facility’s water well
operation and maintenance (O&M) of ANP               no longer worked, requiring water to be trucked to the site daily.
facilities have not been used to maintain the
ADPH. CSTC-A did not concur with this
recommendation. It commented that the
Afghan government faces difficult decisions                                                                                  Health
when prioritizing needs that may exceed the                                                                                  hazard with
available budget and, as a result, some                                                                                      mold on
projects or facilities may receive less funding                                                                              barracks’
                                                                                                                             ceiling and
than would be desired if the budget were                                                                                     walls
unlimited. While SIGAR recognizes that
allocation of an O&M budget must be
prioritized, conditions identified during
SIGAR’s inspection, coupled with the reported                                                                                Source:
requests from Afghan officials for O&M                                                                                       SIGAR,
support, indicate that an investigation is                                                                                   November
warranted into why funds provided to the                                                                                     19, 2012.
Ministry of Interior for O&M of ANP sites have
apparently not been provided to ADPH.

        For more information contact: SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil
October 30, 2013

General Lloyd J. Austin III
Commander, U.S. Central Command

General Joseph F. Dunford, Jr.
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force

Major General Dean J. Milner
Deputy Commanding General, NATO Training Mission-Afghanistan/Operations

Major General Kevin R. Wendel
Deputy Commanding General, Combined Security Transition Command-Afghanistan/
  Ministerial Advisory Group

Lieutenant General Thomas P. Bostick
Commanding General and Chief of Engineers
U.S. Army Corps of Engineers


This report discusses the results of SIGAR’s inspection of the Archi District Police Headquarters
(ADPH) facilities in Kunduz province, Afghanistan. During our inspection, we found that the
ADPH facilities were in a state of disrepair, with an estimated 40 Afghan National Police
personnel living and working in facilities with extensive mold—which can cause serious health
problems—growing on the interior walls and ceilings of the barracks and bathrooms. This report
recommends that the Deputy Commanding Generals of the NATO Training Mission-Afghanistan
(NTM-A) and the Combined Security Transition Command-Afghanistan (CSTC-A), in coordination
with the Afghan Minister of Interior, determine why U.S. funds provided directly to the Ministry
of Interior for operation and maintenance (O&M) of ANP facilities have not been used to
maintain the ADPH.
In commenting on a draft of this report, CSTC-A disagreed with this recommendation, stating
that the Afghan government faces difficult decisions when prioritizing a list of needs that may
exceed the available budget and, as a result, some projects or facilities may receive less
funding than would be desired if the budget were unlimited. While we recognize that allocation
of an O&M budget must be prioritized, the deplorable conditions we identified during our
inspection, coupled with requests from Afghan officials at the site for O&M support,
underscore the importance of implementing our recommendation.
                 SIGAR conducted this inspection under the authority of Public Law No. 110-181, as amended;
                 the Inspector General Act of 1978, as amended; and in accordance with Quality Standards for
                 Inspection and Evaluation, published by the Council of the Inspectors General on Integrity and
                 Efficiency.




                 John F. Sopko
                 Special Inspector General
                  for Afghanistan Reconstruction




SIGAR 14-5-IP/Archi District Police Headquarters                                                         Page ii
                                            TABLE OF CONTENTS


Background .................................................................................................................................................................. 2

Force Protection Measures Appeared Well-Constructed........................................................................................... 3

Serious Maintenance Issues at Archi District Police Headquarters May Affect Personnel Health and Welfare .... 4

Conclusion.................................................................................................................................................................... 7

Recommendation ........................................................................................................................................................ 8

Agency Comments ....................................................................................................................................................... 8

Appendix I - Scope and Methodology ....................................................................................................................... 10

Appendix II - Aerial View of the Archi District Police Headquarters ......................................................................... 11

Appendix III - Comments from the Combined Security Transition Command-Afghanistan ................................... 12
Appendix IV - Comments from the U.S. Army Corps of Engineers ........................................................................... 19

Appendix V - Acknowledgments ................................................................................................................................ 23


FIGURES

Figure 1 - Map Showing Archi in Relation to the Cities of Kunduz and Kabul ......................................................... 1


PHOTOS

Photo 1 - Entry Point, Guard Tower, and Perimeter Wall at Archi District Police Headquarters ............................. 2

Photo 2 - Sinks without Faucets or Water, and Mold in Barracks and Bathroom Buildings ................................... 5

Photo 3 - Inoperable Main Generator Stored under a Tarp ...................................................................................... 6

Photo 4 - Small Back-Up Generator Used for Occasional Power .............................................................................. 6

Photo 5 - Only Source of Water Is Hand-dipped from Plastic Day-Tank ................................................................... 6




SIGAR 14-5-IP/Archi District Police Headquarters                                                                                                                       Page i
ABBREVIATIONS AND ACRONYMS

         ADPH                         Archi District Police Headquarters

         ANA                          Afghan National Army

         ANP                          Afghan National Police

         ANSF                         Afghan National Security Forces

         CSTC-A                       Combined Security Transition Command-Afghanistan

         NTM-A                        NATO Training Mission-Afghanistan

         O&M                          Operation and Maintenance
         USACE-TAN                    U.S. Army Corps of Engineers, Afghanistan Engineer District-North
         WHO                         World Health Organization




SIGAR 14-5-IP/Archi District Police Headquarters                                                          Page ii
The Afghan National Security Forces (ANSF) are made up of the Afghan National Army (ANA) and the Afghan
National Police (ANP). Currently, the ANP has about 500 facilities throughout Afghanistan, ranging from large
provincial headquarters to smaller police district headquarters. One of these smaller police facilities, the Archi 1
District Police Headquarters (ADPH), is located near the village of Wazir Khan, Kunduz province, in a remote
area of northern Afghanistan bordering Tajikistan (see figure 1). NATO Training Mission-Afghanistan (NTM-A) 2
oversees the operation and maintenance (O&M) associated with ANA and ANP facilities, and its Regional
Command-North personnel visit facilities in Kunduz province to teach Afghans how to operate and maintain the
facilities, including their heating and cooling, electrical, water, and sewage systems.

SIGAR inspectors accompanied NTM-A personnel during a visit to the ADPH in November 2012, and conducted
an independent inspection of this ANP facility.
For this inspection, we assessed (1) whether    Figure 1 - Map Showing Archi in Relation to the Cities of
construction had been completed in              Kunduz and Kabul
accordance with contract requirements and
applicable construction standards, and (2)
whether the facilities were being used as
intended and maintained.
We conducted our work in Kabul,
Afghanistan; the U.S. Army Corps of Engineers
(USACE) Kunduz Resident Office; and the
ADPH from October 2012 through October
2013, in accordance with the Quality
Standards for Inspection and Evaluation,
published by the Council of the Inspectors
General on Integrity and Efficiency. The
engineering assessment was conducted by a
professional engineer in accordance with the
National Society of Professional Engineers’
Code of Ethics for Engineers. Appendix I
provides a more detailed discussion of our
scope and methodology. Appendix II provides
an aerial view of the ADPH facilities.
                                                       Source: SIGAR and Google.




1 The term “Archi” is transliterated and spelled in various documents as Aachi, Arche, and variations of Dashte Archi, Dahst-

i-Archi, Dasht-e Archi, Dashte Arche, and Dasht-e- Arch, loosely translated as district or place of Archi. For consistency
within this report, unless used in a quotation, we use the Archi spelling.
2 NTM-A supports the International Security Assistance Force in overseeing training for the ANSF. Combined Security

Transition Command-Afghanistan (CSTC-A) is the lead U.S. agency responsible for ANSF development, including organizing,
training, and equipping of the ANSF. Because they have different responsibilities, such as NTM-A being responsible for the
ANSF building program, and CSTC-A overseeing U.S. government funds provided to the ANSF, the specific acronym will be
used as necessary throughout this report, to delineate NTM-A or CSTC-A responsibility.



SIGAR 14-5-IP/Archi District Police Headquarters                                                                     Page 1
BACKGROUND
                                                          Photo 1 - Entry Point, Guard Tower, and Perimeter Wall at
On March 4, 2008, the U.S. Army Corps of                  Archi District Police Headquarters
Engineers, Afghanistan Engineer District-North
(USACE-TAN) 3 awarded a $4.2 million firm fixed-
price contract (W917PM-08-C-0026) to Swiz
Hewadwal Joint Venture 4 to construct nine
district police headquarters facilities for the
ANP, including $708,331 for ADPH facilities.
The funding covered management, planning,
adapting construction designs specifically to the
site, materials, labor, equipment, de-mining
activities, and the construction of buildings,
vehicular access points, utilities, force
protection measures, and site security.
On March 12, 2009, USACE-TAN modified the
contract to limit construction at the Archi site to
force protection measures, which were
identified as the perimeter walls, guard towers,    Source: SIGAR, November 19, 2012.
main and secondary entry control points, as
well as a guard shack and guard house (see
photo 1). Based on this modification, the amount of the contract allocated for construction of the ADPH
facilities was reduced from $708,331 to $289,185. In response to a draft of this report, USACE and CSTC-A
reported that the final payment to the contractor was further reduced to $218,181.
To provide O&M support for ANSF facilities across Afghanistan, USACE awarded two maintenance contracts in
July 2010 to ITT Exelis Systems Corporation, with a combined value of $800 million—$450 million for facilities
supported by USACE-TAN and $350 million for facilities supported by Afghanistan Engineer District-South. The
O&M services to be provided under the contracts included building and structures maintenance; utility
systems; and heating, ventilation, and air conditioning systems. As part of the contract, ITT Exelis Systems
Corporation was also required to train Afghan workers on O&M skills, such as electrical, plumbing, and sewage
treatment plant operation. An official from NTM-A/CSTC-A stated that maintenance of the ADPH had been
covered under the USACE-TAN O&M contract from November 1, 2011, to May 1, 2012.
CSTC-A has also provided on-budget assistance to the Ministry of Interior to support ANP O&M activities. 5 The
Ministry of Interior submits an O&M budget to CSTC-A for ANP facilities throughout Afghanistan. Once



3 In 2009, the Afghanistan Engineer District was divided into two districts—North and South. The North District, where the

ADPH is located, was referred to as USACE-TAN. In July 2013 both districts were combined into USACE-Transatlantic
Afghanistan.
4 This joint venture consisted of Swiz Hewadwal and Hewadwal Construction Company, an Afghan company. Subsequent to

this contract, the joint venture was dissolved.
5 Direct (also known as “on-budget”) assistance is funding provided directly to another government’s national budget to be

used by that government. Unlike assistance provided through contractors and nongovernmental organizations operating on
behalf of U.S. implementing agencies (also known as “off-budget assistance”), direct or on-budget assistance is designed



SIGAR 14-5-IP/Archi District Police Headquarters                                                                     Page 2
approved, the funds are provided to the Ministry of Interior through the Ministry of Finance. The Ministry of
Interior’s Facilities Maintenance Department works with the provincial chiefs of police to provide the funds
needed for O&M contracts at the province and district level.
Based on our discussions with CSTC-A and a review of supporting documentation, about $829.1 million has
been provided in on-budget assistance to the Ministry of Interior from March 21, 2011, through December 20,
2013, for the operation, maintenance, and sustainment of ANP facilities. These funds have been provided as
follows:
$159.2 million for March 21, 2011 through March 19, 2012;
$217.0 million for March 21, 2012 through December 20, 2012; and
$452.9 million for December 21, 2012 through December 20, 2013.


FORCE PROTECTION MEASURES APPEARED WELL-CONSTRUCTED

During our November 19, 2012, site inspection at the ADPH, we found that the perimeter walls, guard towers,
main and secondary entry control points, as well as a guard shack and a guard house, appeared to be well-
constructed. However, USACE-TAN officials were unable to locate the project’s essential construction files,
which prevented us from determining whether these force protection measures had been constructed in
accordance with contract requirements and applicable construction standards. Documents that we would
normally review, but that could not be located, included contract technical specifications and requirements,
design documents, geotechnical reports, material testing reports, quality control and quality assurance reports,
and transfer and acceptance documents. Unfortunately, this is not the first time that SIGAR auditors have
encountered the problem of missing or incomplete construction files. We reported in April 2013, for example,
that we were unable to fully assess the quality of construction or construction oversight at the Qala-I-Muslim
Medical Clinic due to missing project design, construction, and oversight documents. 6
In addition, USACE-TAN and CSTC-A had conflicting information regarding the project’s cost. As noted above,
USACE-TAN’s contract modification in March 2009 limited the work at the ADPH to force protection measures
and reduced the project cost for the site from $708,331 to $289,185. However, CSTC-A provided us with a
project summary tracking sheet that showed the project was completed at a cost of $734,292, an amount
greater than the original project amount. The summary tracking sheet also showed that a final inspection was
performed and the facilities were transferred to the Afghan government on May 15, 2011. However, due to the
absence of the project’s construction files, we could not determine exactly which facilities had been
transferred to the Afghan government. 7




to allow the Afghans more freedom to manage their own budget and to build their capacity for doing so. The on-budget
funds are provided directly to the Afghan Ministry of Finance with the stated purpose to assist in the execution of Ministry
of Interior programs.
6 SIGAR Inspection 13-7, Qala-I-Muslim Medical Clinic: Serving the Community Well, But Construction Quality Could Not Be

Fully Assessed, April 17, 2013.
7 NTM-A provided us a copy of the DD Form 1354—the Department of Defense form used for the transfer and acceptance
of military real property—dated January 25, 2011, transferring perimeter walls, guard towers, main and secondary entry
control points, and guard shack and guard house from USACE to CSTC-A. However, neither USACE nor NTM-A could provide
documentation showing that the facilities had been transferred to the Afghan government, or documentation concerning
the other buildings located at the site.



SIGAR 14-5-IP/Archi District Police Headquarters                                                                       Page 3
SERIOUS MAINTENANCE ISSUES AT ARCHI DISTRICT POLICE HEADQUARTERS
MAY AFFECT PERSONNEL HEALTH AND WELFARE

In addition to the force protection measures constructed under USACE’s contract with Swiz Hewadwal Joint
Venture, the ADPH contains other facilities, including an administration building, barracks, bathrooms, water
tower, water well, and septic system. Neither USACE-TAN nor Afghan officials could tell us who built these
facilities or when they were built. NTM-A officials told us they believe the facilities were U.S.-built, but could not
provide documentation to support their position. USACE-TAN officials stated that even if the facilities were U.S.-
built, neither USACE-TAN nor its contractors built them. Our engineer estimated that the facilities were less
than 10 years old.
We observed that these facilities were being used, but suffered from a significant lack of maintenance. SIGAR
inspectors observed about 40 ANP personnel using the facilities, including living in the barracks. We noted a
number of habitability issues. Most significantly, extensive mold was growing on the interior walls and ceilings
of the barracks and bathroom facilities. According to the World Health Organization (WHO) and the U.S. Centers
for Disease Control and Prevention, mold in dwellings can cause serious health problems. 8 In addition, the
bathrooms were virtually unusable—faucets were torn out of the wall; the shower facilities were in disrepair;
and there was no running water for the sinks, showers, or toilets (see photo 2).




8The World Health Organization (WHO) in its WHO Guidelines for Indoor Air Quality, published 2009, states that indoor air
pollution, including dampness and mold, is a major cause of mortality worldwide; it negatively impacts respiratory
symptoms, allergies and asthma, and the immune system. The Centers for Disease Control and Prevention, in its Facts
about Mold and Dampness, also notes that mold in dwellings can cause serious health problems, particularly for immune-
compromised people and people with chronic lung illnesses.



SIGAR 14-5-IP/Archi District Police Headquarters                                                                   Page 4
Photo 2 - Sinks without Faucets or Water, and Mold in Barracks and Bathroom Buildings




Source: SIGAR, November 19, 2012.




 SIGAR 14-5-IP/Archi District Police Headquarters                                       Page 5
Electrical power for the ADPH facilities was supposed to be supplied by a large generator. However, ANP
personnel at the site stated that the large generator had not been functional for the past 2 years because it
needed repair. They added that even if the generator were repaired, they did not receive enough fuel to
operate it. Instead, electrical power was being supplied by a small back-up generator, which ANP personnel
said they purchased locally. They also told us that the small generator was only used about 3 hours per night to
provide basic electricity needs or for emergency purposes (see photos 3 and 4).

   Photo 3 - Inoperable Large Generator Stored                  Photo 4 - Small Back-Up Generator Used
   under a Tarp                                                 for Occasional Power




   Source: SIGAR, November 19, 2012.                            Source: SIGAR, November 19, 2012.



ANP personnel on-site also stated that the facilities
                                                              Photo 5 - Only Source of Water Is Hand-dipped from
did not have running water due to the limited
availability of electricity. At the time of our inspection,
                                                              Plastic Day-Tank
they were filling an on-site water tower from a well
when electricity was available. However, because the
small generator operated only about 3 hours a day, it
did not allow enough water to be pumped from the
well to the water tower to meet the facility’s daily
needs. As a result, the ANP personnel conserved
water by connecting a garden hose to the water tower
and filling a small plastic “day-tank,” which served as
the only source of water for the facilities. ANP
personnel told us they hand-dipped water from the
day-tank using pitchers or cans and used it for
drinking, cooking, and hygiene purposes (see
photo 5).
Operation of the sewage system was limited because      Source: SIGAR, November 19, 2012.
the mechanical systems for the toilets were not
working, and there was no running water. According
to ANP personnel, flushing was performed by pouring pitchers of water taken from the day-tank into the toilets.




SIGAR 14-5-IP/Archi District Police Headquarters                                                         Page 6
CSTC-A funded a USACE contract for O&M of the ADPH and other Afghan facilities from October 2011 to May
2012. In addition, the entire ADPH facility has been eligible since December 2012 for O&M from the Afghan
Ministry of Interior, which receives funding directly from the U.S. government for O&M of ANP facilities
throughout Afghanistan. CSTC-A officials stated that O&M of the ADPH should have been included in this direct
funding. However, they also indicated that, due to the process in place for direct assistance, they have no
visibility over how the funds have been used by the Afghan Ministry of Interior to sustain specific ANSF sites. As
a result, they could not provide us any information on how much funding has been specifically provided to
support O&M of the Archi facility. In addition, ANP personnel at the site reported that they had not received
O&M support from the U.S. or Afghan governments.
In May 2013, an NTM-A advisor to the Ministry of Interior stated that if we revisited ADPH, we would likely see
an improvement in the quality of living conditions from what we found in November 2012. The advisor told us
the process for getting money from the ministerial level to the provincial chiefs of police and down to the
district level had improved. In lieu of revisiting the facility, which we could not do due to security constraints, we
held telephone discussions in July and August 2013 with Afghan police officials responsible for the Archi
facilities. The police official in charge of the site told us that the Archi facility still has not received any O&M
support, despite repeated requests by ADPH police officers to the Provincial Chief of Police, as required under
the current process for obtaining O&M. As a result, the deficiencies we found during our November 2012
inspection had not been corrected. Moreover, the officials we spoke with told us that conditions have
worsened because the water well stopped working in May 2013, and despite requests to have it repaired, it
had not been fixed. The officials noted that water was being trucked to the site daily but that it was insufficient
for their needs.
We have previously reported on concerns with the operation, maintenance, and sustainment of ANSF facilities.
For example, in October 2012, we reported that the Afghan government continued to face challenges—lack of
sufficient number and quality of personnel, as well as undeveloped budgeting, procurement, and logistics
systems—that would likely prohibit it from being capable of fully sustaining ANSF facilities after the transition in
2014. 9 The report also noted that the Ministry of Interior continued to rely on U.S. and coalition funding and
support, thereby decreasing the likelihood that it could sustain ANP facilities in the long run. As a result, we
concluded that U.S. funds invested in the construction and maintenance of ANSF facilities, particularly police
facilities, were at risk of being wasted.


CONCLUSION

Although the force protection measures—the perimeter wall, guard towers, entry control points, a guard shack,
and a guard house--constructed under the 2008 USACE contract with Swiz Hewadwal Joint Venture appear
well-constructed, we have serious concerns about the ADPH. Missing project documentation prevented us from
determining whether contract requirements and construction standards were met. Moreover, it remains a
mystery to U.S. and Afghan officials as to who built the other structures at the facility. Of most concern,
however, are the deplorable conditions under which these facilities are being occupied and used. Extensive
mold throughout the barracks and bathrooms, as well as the absence of electricity, heating and cooling
systems, and running water for showers, sinks, and toilets indicate the facilities are not being maintained,
despite requests from the officials posted at the site for O&M support. This lack of support raises concerns
about the effectiveness of the O&M funds provided directly to the Afghan government, and raises broader
concerns about the sustainability of other facilities the U.S. government has constructed in Afghanistan.


9 SIGAR Audit 13-1, Afghan National Security Forces Facilities: Concerns with Funding, Oversight, and Sustainability for

Operation and Maintenance, October 30, 2012.



SIGAR 14-5-IP/Archi District Police Headquarters                                                                     Page 7
RECOMMENDATION

To ensure that ADPH facilities are properly maintained, and to help protect the U.S. government’s investment
in the facilities, we recommend that the Deputy Commanding Generals of NTM-A and CSTC-A, in coordination
with the Minister of Interior,

    1. Determine why U.S. funds provided to the Ministry of Interior for O&M of ANP facilities since December
       2012 have not been used to maintain the ADPH and what corrective actions will be taken to ensure
       direct funds to the Ministry of Interior for O&M are used as intended, and report back to SIGAR within
       90 days.


AGENCY COMMENTS

CSTC-A and USACE provided written comments on a draft of this report, which we incorporated into the final
report, as appropriate. Their comments, and our responses to CSTC-A and USACE, are reproduced in
appendices III and IV, respectively.
Our draft report originally recommended that NTM-A/CSTC-A, in coordination with USACE, conduct an
investigation to determine whether O&M funds were allocated to support the ADPH under the USACE-TAN O&M
contracts. If funds were allocated, we recommended that the agencies determine why O&M was not performed
and, if funds were not allocated, determine why the site was excluded.
    •    CSTC-A partially concurred with this recommendation and determined that the ADPH was covered
         under the USACE O&M contract. CSTC-A disagreed with the remainder of the recommendation,
         commenting that the recommendation presumed O&M had not been provided to ADPH. While the
         deplorable condition in which we found the site strongly suggests that O&M was not provided at the
         site during the period in which it was covered under the USACE-TAN contract, we agree that because
         the site had not been covered by the contract for 6 months when our site visit occurred, we cannot
         show conclusively that O&M was not provided under the USACE-TAN contract. Therefore, we have
         deleted this recommendation in the final report.
    •    USACE did not explicitly agree or disagree with the recommendation in the draft report, but noted that
         the ADPH had been under the USACE O&M contract from October 19, 2011 to May 1, 2012, at which
         time it was transferred to the ANP for O&M support.
Our draft report also recommended that NTM-A/CSTC-A, in coordination with USACE, ensure that necessary
corrections were made to the Archi project’s construction files to reflect accurate cost information. CSTC-A and
USACE both concurred with this recommendation and commented that project files had been corrected to
reflect the $218, 181 amount listed on the DD Form 1354—the Department of Defense form used for the
transfer and acceptance of military real property—dated January 25, 2011. We commend CSTC-A and USACE
for prompt action to ensure the construction project files contain accurate information, and, as a result of the
agencies taking corrective action, have deleted this recommendation from the final report.
With regard to our recommendation that NTM-A/CSTC-A, in coordination with the Afghan Minister of Interior,
determine why U.S. funds provided for O&M of ANP facilities have not been used to support the ADPH, CSTC-A
disagreed, noting that, “contrary to SIGAR’s recommendation, the goal is not to respond to an unfulfilled need
or want by increasing the funding provided to the Afghans, but to instead help the Afghans make proper
budgeting decisions that reflect prudent financial stewardship so that they can prioritize and address their own
needs.” This statement seems to misinterpret our recommendation. We are not recommending that more
funding be provided to the Afghan government. Rather, in light of the deplorable conditions in which we found
the site and the repeated requests by officials at the site for support, we are recommending that a


SIGAR 14-5-IP/Archi District Police Headquarters                                                          Page 8
determination be made as to why support has not been given to the ADPH. The answer to this question will
likely help inform the important discussion of how the Afghan Ministry of Interior is using the funding it has
been provided by the U.S. government for O&M of ANP facilities. Therefore, this recommendation remains, in
our view, valid.




SIGAR 14-5-IP/Archi District Police Headquarters                                                          Page 9
APPENDIX I - SCOPE AND METHODOLOGY

This report provides the results of SIGAR’s inspection of the Archi District Police Headquarters (ADPH), an
Afghan National Police facility, near the town of Wazir Khan in Kunduz province. This inspection report is one in
a series of inspections of U.S. Army Corps of Engineers construction projects in Afghanistan’s northern
provinces.
To determine whether construction had been completed in accordance with contract requirements and
applicable construction standards, as well as whether the facilities were being used as intended and
maintained, we:
     • interviewed cognizant U.S. and Afghan officials involved in the construction project; and
     • conducted a physical inspection and photographed the project site to observe the current status and
       quality of construction.
However, our inspection was limited because U.S. Army Corps of Engineers, Afghanistan Engineer District-North
officials could not locate construction project files. Due to the absence of these files, we were not able to
review all contract documents, design submittals, and geotechnical reports in order to understand project
requirements and contract administration. As a result, we were not able to determine fully whether the
construction was completed in accordance with contract requirements and applicable construction standards.
We conducted this inspection in Kabul, Afghanistan; at the U.S. Army Corps of Engineers Kunduz Resident
Office; and the ADPH facilities from October 2012 through October 2013, in accordance with the Quality
Standards for Inspection and Evaluation, published by the Council of the Inspectors General on Integrity and
Efficiency. The engineering assessment was conducted by professional engineers in accordance with the
National Society of Professional Engineers Code of Ethics for Engineers. We did not rely on computer-
processed data in conducting this inspection. However, we considered the impact of compliance with laws and
fraud risk.
We believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our inspection objectives. We conducted this inspection under the authority of Public Law No. 110-181, as
amended; and the Inspector General Act of 1978, as amended.




SIGAR 14-5-IP/Archi District Police Headquarters                                                         Page 10
APPENDIX II - AERIAL VIEW OF THE ARCHI DISTRICT POLICE HEADQUARTERS




SIGAR 14-5-IP/Archi District Police Headquarters                Page 11
APPENDIX III - COMMENTS FROM THE COMBINED SECURITY TRANSITION
COMMAND-AFGHANISTAN




SIGAR 14-5-IP/Archi District Police Headquarters                Page 12
                                          CSTC-A MAG INSPF.CTION R£PORT RF.SPONSF:
               "Archi District Police Headquarters: Extensive Mold, Lack of Running Water, and Inoperable Electrical
                                         Systems Show Facilities Are Not Being Sustained"
                                                 (SIGAR Inspection Report 1-0068)


              1. The purpose ofthis memorandum is to provide responses to SIGAR's draft report.

              2. The Combined Security Transition Command - Afghanistan (CSTC-A) acknowledges with
                 appreciation SlGAR's conc~ms regarding the Afghan National Police (ANP) that prompted SlGAR's                            SIGAR
                 November 2012 inspection of the Archi District Police Headquarters. CSTC-A notes, however, that                          comment 1
                 the facilities that were identified with health and/or maintenance issues (e.g., the barracks,
                 administration facility, generator. and well) were not built or provided by USACE-TAN. and these
                 facilities appear to be pre-existing. CSTC-A does not know who constructed those pre-existing
                 facilities.

              3. CSTC-A provided operation and maintenance (O&M) support for the Archi facility as part of a
                 Coalition funded O&M bridging contract, to include O&M of the barracks, administrative building,
                 well and a generator. d1ough this generator was not the inoperable generator discussed in the SIGAR
                 report. 1 More importantly, the SlGAR inspection occurred many months after the Coa lition funded
                 O&M support was discontinued. Of note, it appears that the CSTC-A mission was successful
                 regarding the force protections structures built by USACE, in that the Afghans appeared to have
                 provided all necessary sustainment and maintenance for that infrastructure, evidenced by a lack of
                 derogatory comments by SIGAR as to those structures. With these facts in mind. CSTC-A will next
                 address SIGAR's recommendations.

              4. Recommendation I:
              The Commander, Combined Security Transition Command-Afghanistan, in coordination with the
              Commanding General, USACE, conduct an investigation to detennine whether operations and
              maintenance funds were allocated to support the Arch i District Police Headquarters under the USACE-
              TAN operations and maintenance contracts and a) if funds were allocated, determine why operations and
              maintenance of the facility was not perfom1ed; or b) if funds were not allocated for the site. detennine
              why the site was excluded from sustainment; and report back to !GAR within 90 days.

              a. CSTC-A reviewed the draft report and has the following comments:

              b. CSTC-A concurs with SIGAR 's recommendation only to ihe extent that it recommends that CSTC-A
                 detennine whether funds were allocated to support the Archi facility under a Coalition funded O&M                       SIGAR
                 bridging contract. CSTC-A disagrees with the remainder of SIGAR ·s recommendation and SIGAR 's                          comment 2
                 presumption that if coalition operations and maintenance funds were allocated to support the
                 infrastructure at the Archi District Police Headquarters, then the operations and maintenance was not
                 perfonned.

              c. USACE did not construct or provide the administrative building, barracks, well or generator
                 discussed in the SIGAR report. As such, those pre-existing facilities should not have been included
                 on the Coalition funded O&M bridging contract CSTC-A has conducted an investigation to

              1
                The O&M controct included servicing of a generator identified as Chinese model number ZH 112$\VPD and serial
              number 26112715001. The ·•main generator" discussed in the SIGAR report appears to be a different make and
              model manufactured in Gcnnany. As discussed later in this rcpon, that generator appears untouched li'om its
              position resting on pallets since early 20 11 , at which time it was not connected to an electrical system. For purposes
              of addressing whether O&M should have been perfonned on the main generator, it would have been helpful for the
              SIGAR investigators to have documented the make and model of the main generator. its hours, and whether there
              were any signs that the generator had ever been connected to an electrical system.

                                                                   Page 1 of 5




SIGAR 14-5-IP/Archi District Police Headquarters                                                                                         Page 13
                                       CSTC-A MAG INSPECTION REPORT RESPONSE
               "Archi District Police Headquarters: Extensive Mold, Lack of Running Water, and Inoperable Electrical
                                         Systems Show Facilities Are Not Being Sustained"
                                                 (SIGAR Inspection Report 1-0068)

                   determine whether operations and maintenance funds were allocated to support the Archi District
                   Police Headquarters under the USACE-TAN operations and maintenance contracts. CSTC-A found
                   that an O&M bridging contract was in place for the force protection measures provided by USACE,
                   as well as for pre~xisting facilities comprising an administration building, barracks, a well and a
                   generator. The generator that was covered under the bridging contract is different than the inoperable
                   generator that is discussed in the SIGAR report.

              d. The Coalition funded O&M bridging contract for the Archi facilitY includes an anomaly.
                 Specifically, in addition to the O&M of the force protection measures provided by USACE, the
                 bridging contract also included O&M of pre-existing facilities. CSTC-A's O&M contracts are
                 typically limited to those structures constructed by USACE and do not include pre-existing facilities.
                 It appears that the inclusion of those pre-existing structures may have been related to determining the
                 required O&M hy examining the scope of the original contract rather than the modified contract thAt
                 had been de-scoped by 59%. As discussed below, CSTC-A modified one of its databases to help
                 prevent such oversights in the future.

              e. Regardless of whether the pre-existing facilities should have been included in the bridging contract,
                 CSTC-A disagrees with SIGAR's presumption that operations and maintenance of the Archi faciliry               SIGAR
                 were not performed. CSTC-A has no record that the Archi site experienced any irregular
                 maintenance or problems under the bridging contract, let alone any record or any reports of mold or           comment 2
                 of an inoperable generator. CSTC-A recognizes that if there were such problems, then USACE
                 would have been the point of contact for the personnel at Archi, and CSTC-A understands that
                 USACE also has no record of concerns or events that precluded Archi from receiving the regular
                 O&M services and that USACE therefore has no reason to conclude that Archi DHQ location did not
                 receive the regularly scheduled maintenance. In short, there is no indication that the O&M support at
                 Archi was not perfonned during the contract period.

              f.   A site visit was conducted in early 20 II to document the Afghan Nation Police (ANP) capital assets
                   at the Arc hi location. This visit was perfonned after the construction of the force protection measures
                   was completed and a copy of the corresponding report is attached as Annex A. In addition to the
                   force protection measures, this report shows a generator resting on pallets and unconnected to any
                   electrical system. Additionally, the generator included a number of labels in Gem1an.2 This is the
                   same generator that SIGAR identified as the inoperable main generator, and the pictures show it to
                   still be resting on pallets. A different generator was covered under the bridging contract, and it would
                   have been helpful in preparing this response to have had infommtion regarding the operable generator
                   that the SIGAR inspectors witnessed during their site visit.

              g. The Afghans arc able to properly operate and maintain the facilities provided by US ACE. After
                 SIGAR's site visit in November of2012 (six months after the bridging contract expired), SlGAR
                 expressly concluded "the perimeter walls, guard towers, main and secondary entry control points, as
                 well as a guard shack and guard house, appeared to be well-constructed." The S!GAR report does not
                 indicate that there were any construction or maintenance issues with these force protection measures,
                 indicating that the Afghans were properly trained on the correct operations and maintenance skills to
                 maintain those facilities, demonstrating a successful transition of facilities maintenance responsibiliry.


              2
                CSTC-A notes that there was a German base in Kundu;z. CSTC-A takes no position on whether the German
              government may have been involved with the construction of the barracks and administration building at Archi.


                                                                 Page 2 ofS




SIGAR 14-5-IP/Archi District Police Headquarters                                                                              Page 14
                                          CSTC-A MAG INSPECTION REPORT RF:SPONSE
                  "Archi District Police Headquarters: Extensive Mold, Lack of Running Water, and Inoperable Electrical
                                            Systems Show Facilities Arc Not Being Sustained"
                                                    (SJGAR Inspection Report 1-0068)


              h. In sum, there are no reports or records suggesting that the USACE facilities at Archi did not receive
                 proper maintenance under the Coalition fu nded O&M bridging contract. When SIGAR visited the
                 site six months after the expiration of this operations and maintenance contract, it found that these
                 force protection measures were well-constructed, and there were no indications that these measures
                 had any operations or maintenance issues. CSTC-A inadvertently extended the services under its
                 O&M contract to include pre-existing barracks and an administration building. Approximately six
                 months after that contract expired, SIGAR inspected the site and noted health and sustainment issues
                 to infrastructure that USACE did not construct and that CSTC-A should not have been respOnsible for
                 under the O&M contract.3 CSTC-A has modified one of its databases in a manner that should avoid
                 future oversights of this nature.

              S. Recommendation 2:
              The Commander. Combined Security Transition Command-Afghanistan, in coordination with the
              Commanding General, USACE, ensure that the necessary corrections are made to the NTM-NCSTC-A
              and USACE construction project files to reflect accurate cost information.

              a. CSTC-A reviewed the draft report and has the following comments:

              b. CSTC-A concurs with SIGAR's recommendation. CSTC-A maintains a number of databases, and                                 SIGAR
                 one database that contained infom1ation regarding the contract costs of the construction at Archi did
                 not reflect the current information. Specifically, that database listed the contract construction cost as               comment 3
                 $734,292 rather than the modified contract amount of$218, 181, as reflected on the DD Fom1 1354.
                 This database has been modified to auto-pOpulate the current contract cost using infonnat ion from
                 other databases to reflect accurate cost information for ongoing and future projects. CSTC-A bel ieves
                 that these corrections to the CSTC-A database have addressed the issue that caused the program to
                 not reflect the most up-to-date contract information.

              6. Recommendation 3:
              The Commander, Combined Security Transition Command-Afghanistan, in coordination with the
              Minister of Interior, determine why U.S. funds provided for operation and maintenance of the Archi
              District Police Headquarters have not been used to support the facility and, as quickly as possible. provide
              necessary funding to improve living conditions at the site.

              a. CSTC-A reviewed the draft report and has the following comments:

              b. CSTC-A disagrees with the conclusion that U.S. funds were not provided to Archi. As discussed                           SIGAR
                 above, Coalition funds for operation and maintenance of the Archi facility were provided under an                       comment 4
                 O&M bridging contract and that support was provided to the Archi facility.
                                                                                                                                                   I
              c. Under the current system in Afghanistan, like the system in the United States, an O&M budget is                         SIGAR
                 prepared that prioritizes the needs of the facilities. Like in the United States, the Afghans may face                  comment 5

              3
                CSTC-A has observed that mold can grow quickly in unventilated facilities in Afghanistan and has taken measures
              to increase natural ventilation in newly-built facilities. Though il' is unfortunate that the barracks have mold growth,
              under the local conditions such mold growth does not necessary reflect a long-tenn lapse in maintenance. Likewise,
              the removal of the faucets (and the wall fixtures, which were not discussed in the SIGAR report) could have
              occurred at any time after the conclusion of the O&M service contract. It is not CSTC-A 's normal procedure to
              replace items that were intentionally removed rrom pre-existing structures.

                                                                   Page3 ofS




SIGAR 14-5-IP/Archi District Police Headquarters                                                                                         Page 15
                                        CSTC-A MAG INSPECTION REPORT RESPONSE
                "Archi District Police Headquarters: Extensive Mold, Lack of Running Water, and Inoperable Electrical
                                          Systems Show Facilities Are Not Being Sustained"
                                                  (SIOAR Inspection Report I-006B)

                    difficult decisions when prioritizing a list of needs that may exceed the available budget. As a result,
                    there are some projects or facilities that receive less funding than would be desired if the budget were     SIGAR
                    unlimited. The CSTC-A ministerial advisors have been helping the Afghans through this process by
                    leading them through a series of questions: What do they have?; What do they need?; and What can             comment 5
                    they afford? Having to work through this difficult process is an important step for the Afghans to
                    learn to be self sufficient and to not put discretionary "wants'' in front of required ·'needs.'' Contrary
                    to SIGAR's recommendation, the goal is not to respond to an unfulfilled need or want by increasing
                    the funding provided to the Afghans, but to instead help the Afghans to make proper budgeting
                    decisions that reflect prudent financial stewardship so that they can prioritize and address their own
                    needs.

              d. At page 3 of the SIOAR report, it states: ·'Based on our discussions with CSTC-A and a review of                SIGAR
                 supporting documentation, about $829. 1 million has been provided in on-budget assistance to the
                 Ministry of Interior from March 21 , 20 I I through December 20, 2013, for the operation,                       comment 6
                 maintenance, and sustainment of ANP facilities, which should have included the Archi facili ty." As
                 discussed below, SIOAR 's consideration of the total amount of on-budget assistance taken as a whole
                 does not reflect an understanding of the sustainment funding system.

              c. First, it should be noted that sustainment funds are not just limited to O&M. The budget expenditures           SIGAR
                 for Mol Facilities include: Food non-salary (DFAC services), Engineering & Designs,
                 Transportation/Freight/Handling, Construction Equipment-Repair, Generators-Repair, Agricult ure                 comment 7
                 Equipment-Repair, Water Supply/Canals-Repair, Electricity, Water, Municipal Service, Office
                 Equipment and Supplies, Purchase- Agriculture Tools & Materials, Rent Buildings Machinery
                 Equipment, Improvement to Buildings, Improvement to Roads, Acquisition of other Structures, and
                 Water Supply and Cana I Equipment. O&M expenditures were just a small fraction. approximately
                 6.2%, of expended sustainment Sub Activity Group (SAO) items in Solar Year 1391.

               f.   Second, the O&M portion of the Sustainment SAG is to cover the entire nation of Afghanistan, not             SIGAR
                    just the Kunduz province or even the northern region. On page I of the SIGAR report, it is recogni7.ed
                    that "the ANP has about 500 facilities throughout Afghanistan ranging from large corps headquarters          comment 8
                    to smaller police district headquarters,'.. and the Archi District headquarters (DIIQ) is one of the
                    smaller facilities. Based on size alone, it would be expected that the Archi DHQ would receive less
                    O&M funding than many of the other ANP facilities.

              g. Third, the O&M funds are used in two manners: direct O&M performance by organic maintenance
                 staff in the Kabul or provincial areas and by O&M c<>ntracts. O&M contracts vary in swpe. but for
                 the Archi DHQ would most likely have been a province-wide O&M contract. This province-wide
                 O&M C<>ntract would have been initiated in December of2012, which is after the SIGAR inspection
                 occurred.

               h. Fourth. if a maintenance issue is beyond the in-house capacity of a DHQ. such as the Archi site, the
                  procedure is for the DHQ to prepare a maintenance request that would typically be evaluated and
                  potentially responded to by the Provincial headquarters (PHQ) maintenance staff. If the maintenance
                  issue is beyond the capabilities of the PHQ maintenance staff. the maintenance request would then be
                  submitted for work pursuant to the provincial O&M contract. This process requires initiation at the
                  point of need, and the processes can be rather lengthy.

                                                                                                                                 SIGAR
              • Despite SIGAR's assertions, CSTC-A notes that the ANP do not have corps.                                         comment 9
                                                                 Page 4 ofS




SIGAR 14-5-IP/Archi District Police Headquarters                                                                                 Page 16
SIGAR 14-5-IP/Archi District Police Headquarters   Page 17
        SIGAR’s Response to Comments from the Combined Security Transition Command–Afghanistan


    1. We acknowledge that CSTC-A does not know who constructed certain portions of the Archi District
       Police Headquarters (ADPH) (i.e., administrative building, barracks, well or generator). However, as
       CSTC-A notes in its comments, operation and maintenance (O&M) of the barracks, administrative
       building, well and a generator, was part of the USACE O&M contract and, therefore, should have
       received O&M support.

    2. While the deplorable condition in which we found the site strongly suggests that O&M was not
       provided at the site during the period in which it was covered under the USACE-TAN contract, we agree
       that because the site had not been covered under the contract for 6 months when our site visit
       occurred, we cannot show conclusively that O&M was not provided under the USACE-TAN contract.
       Therefore, we have deleted this recommendation in the final report.

    3. We commend CSTC-A for prompt action to resolve this recommendation and, as a result, have deleted
       it from our final report.

    4. CSTC-A is misinterpreting the recommendation. This recommendation does not address the O&M
       bridging contract. Instead, the recommendation addresses funds provided on-budget through the
       Ministry of Interior. We have revised the recommendation to provide additional clarity.

    5. We strongly agree with CSTC-A that the solution is not simply to increase the funds provided to the
       Afghans, but to help the Afghans become self-sufficient through proper budgeting and prudent
       financial stewardship by reconciling needs and wants with available funding. However, to suggest that
       our recommendation is to increase the amount of funds provided to the Afghan government
       misinterprets its intent. The deplorable conditions we encountered at the ADPH—conditions that
       Afghan officials told us remain to this day—continue to raise concerns about the effectiveness of O&M
       funds provided directly to the Afghan government. Therefore, our recommendation to determine why
       U.S. funds provided to the Ministry of Interior for O&M of the ADPH have not been used to maintain the
       facility and what corrective actions will be taken to ensure direct funds to the Ministry of the Interior
       for O&M are used as intended remains valid.

    6. The referenced statement is accurate. The numbers used were provided to us in commitment letters
       issued by CSTC-A to the Afghan government for the years indicated.

    7. We agree that not all of the $829.1 million provided for direct assistance to the Ministry of Interior
       from March 21, 2011 through December 20, 2013, for the operation, maintenance, and sustainment
       of ANP facilities was available for facility maintenance. Our report notes that, in addition to O&M, it
       was also to be used for sustainment. Nevertheless, our point that significant funding is available for
       the operation, maintenance, and sustainment of ANP facilities remains valid.

    8. We agree that the ADPH, as a smaller ANP facility, should not expect to receive the same level of O&M
       support as larger facilities. However, the deplorable conditions we identified, in addition to the
       repeated requests by ADPH officials for O&M support, reinforce that some investigation as to why the
       facility has received no O&M support is warranted.

    9. We have revised the report to cite large provincial headquarters in lieu of large corps headquarters.




SIGAR 14-5-IP/Archi District Police Headquarters                                                        Page 18
APPENDIX IV - COMMENTS FROM THE U.S. ARMY CORPS OF ENGINEERS




SIGAR 14-5-IP/Archi District Police Headquarters               Page 19
               SACE Response to SIGAR Draft Inspection Repo11, "Archi District Police Headquarters:
              Extensive Mold, Luck of Running Water, and Inoperable Elechical Systems Show
              Facilities Arc Not llcing Sustained" (SIGAR inspection code J-006B)

                    In response to the SIGAR Draft Rep01t fi ndings and recommendations the fo llowing
              conuncnts arc provided:

              Audit Recontmend:ttions:

                     To better document the costs of U.S. reconstruction efforts in Afghanistan, we
              recommend that the Deputy Commanding Generals of TM-A and CSTC-A, in coordination
              with U1e Conunanding General, USACE,

                      l. Conduct an investigation to detcnninc whether operations and maintenance
              fh nds were allocated to support the Archi District Police Headquarters under U1e US ACE-TA
              operations and maintenance contracts and a) if ftmds were allocated, detennine why operations
              and maintenance of the facility were not perfonned; or b) if funds were not allocated for the site,
              detennine why the site was excluded from sustainment; and repo1t back to S1GAR witl1in 90
              days.

                SACE Response: Our review disclosed operations and maintenance (O&M) fu nds were                      SIGAR
              allocated by US ACE to pcrfonn O&M on the Archi District Police Headquarters (ANP) from                 comment 1
              project completion until directed by CSTC- A to transfer the project to the A P. The Archi
              District Police Headquarters was originally included within the scope of the TAN O&M contract,
              beginning on 19 October 2011. 1l1e facilities were removed by a modificati on to the contract on
              1 May 20 12 (Task Order 0003, modification 14) per ihe di rection from our customer, NTM.-A
              (CSTC-A). whi ch then transferred the facilities to Lhe ANP to provide future O&M. TI1c SIGAR
              inspection of the facilities began in ovember 20 12; over six months after the ANP became
              responsible for the operation and maintenance of the faci lities. TI1e US ACE O&M contract is
              now administered by the USACE Middle East District, or TAl'vl; the TAM Contracting Officer
              reports that there is no record of concems or event~ that precluded the Archi location from
              receiving regular O&M services per the contract's performance work statement prior to 1 May
              20 12 (when the facilities were deleted from the O&M contract density list). TI1e Contractin g
              Officer also reports that regularly scheduled work was perfom1cd without disruption during the
              period of tl1e contract O&M services, until transfer to the ANP.

                     2: Ensure t hat t11e necessary corrections are made to the TM-      CSTC-A and US ACE
              construction project fil es to reflect accurate cost infonnation.

                SACE Response: Corrections have been made. 1b e d iscrepancy between US ACE and NTM-                   SIGAR
                 CSTC-A has been reconciled to a cost of $218, 181 , which is tl1c cost shown on the USACE
                                                                                                                       comment 2
              DO 1354 property trans fer document dated 25 January 20 11 , when the property was transferred
              from USACE TAN to CSTC-A. CSTC-A explained to USACE that the variance in its reported
              cost of $734,292, found during the audit, was caused by an oversight that did not fu lly capture a
              modification which reduced the contract value (cost) to $218,181. ·n1e cost are now the same for




SIGAR 14-5-IP/Archi District Police Headquarters                                                                    Page 20
              USACE and CSTC-A. ·n,ese reconciled records do not indica!.: a proj ect cost of $289,185, as
              stated in SIGAR's draft report.

                      To ensure U1at Archi District Police Headquarters facilities are properly maint ained, and
              to help protect the U.S. govemment's investment in the facilities, we also recommend that the
              Deputy Conunandin g Generals of TM-A and CSTC-A, in coordination with tl1e Minister of
              Interior:

                      3. Detennine why U.S. funds provided for operation and maintenance of the Archi
              District Po lice Hcadqurutcrs have not been used to support the facility and, as quickly as
              possible, provide necessary funding to improve living conditions at the site.

                SACE Response: USACE is unable to respond to this reconunendation. The review and                    SIGAR
              detem1ination as to why U. S. fund~ provided for O&M of the A P Headquarters, after transfer
                                                                                                                     comment 3
              from USACE O&M. have not been used to support the fac ility should appropriatel y be answered
              by TM-A CSTC-A. An y funding to improve living conditions at the site would also come
              from NTM-A CSTC-A.




SIGAR 14-5-IP/Archi District Police Headquarters                                                                   Page 21
                    SIGAR’s Response to Comments from the U.S. Army Corps of Engineers


    1. SIGAR appreciates efforts by the Combined Security Transition Command-Afghanistan (CSTC-A) and
       the U.S. Army Corps of Engineers (USACE) to determine whether the Archi District Police Headquarters
       (ADPH) had been under the USACE operation and maintenance (O&M) contract. As noted earlier in this
       report, SIGAR has deleted this recommendation from the final report.

    2. We commend USACE for taking prompt action to resolve this recommendation and, as a result, have
       deleted it from our final report.

    3. We agree that USACE is not involved in the direct on-budget assistance that the U.S. provides to the
       Afghan government. Therefore, we have revised this recommendation to direct it only to the NATO
       Training Mission-Afghanistan and CSTC-A.



    .




SIGAR 14-5-IP/Archi District Police Headquarters                                                      Page 22
APPENDIX V - ACKNOWLEDGMENTS

Scott Harmon, Senior Inspections Manager

Crawford “Les” Thompson, Senior Inspections Manager

Brian M. Flynn, Senior Audit Manager

Milton Naumann, Senior Auditor

Warren Anthony, Senior Auditor

Lee Dillingham, Professional Engineer




SIGAR 14-5-IP/Archi District Police Headquarters      Page 23
                                     This inspection report was conducted
                                       under project code SIGAR-I-006B.




SIGAR 14-5-IP/Archi District Police Headquarters                            Page 24
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                            improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                            improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                            improve contracting and contract management
                                            processes;
                                            prevent fraud, waste, and abuse; and
                                            advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                  Web: www.sigar.mil/fraud
                                            Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                            Phone Afghanistan: +93 (0) 700-10-7300
                                            Phone DSN Afghanistan 318-3912 ext. 7303
                                            Phone International: +1-866-329-8893
                                            Phone DSN International: 312-664-0378
                                            U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs                Phone: 703-545-5974
                                            Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                            Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
